TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Fiscal Year 2014 Statutory Review
                            of Compliance With the
                          Freedom of Information Act



                                     September 17, 2014

                             Reference Number: 2014-30-064




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                   HIGHLIGHTS


FISCAL YEAR 2014 STATUTORY                            WHAT TIGTA FOUND
REVIEW OF COMPLIANCE WITH THE
                                                      TIGTA reviewed a statistically valid sample of
FREEDOM OF INFORMATION ACT                            62 FOIA/Privacy Act information requests from a
                                                      population of 2,973 FOIA/Privacy Act requests

Highlights                                            and found seven (11.3 percent) in which
                                                      taxpayer rights may have been violated because
                                                      the IRS improperly withheld or failed to
Final Report issued on                                adequately search for and provide information to
September 17, 2014                                    the requestors.

Highlights of Reference Number: 2014-30-064           The IRS also did not meet requirements
to the Internal Revenue Service Director,             because it failed to adequately search for and
Privacy, Governmental Liaison and Disclosure.         provide information in eight (15.1 percent) of
                                                      53 sampled I.R.C. § 6103 information requests.
IMPACT ON TAXPAYERS                                   When the sample results are projected to their
                                                      respective populations, approximately
The IRS must ensure that the provisions of the        336 FOIA/Privacy Act and 17 I.R.C. § 6103
Freedom of Information Act (FOIA), the Privacy        information requests may have had information
Act of 1974 (Privacy Act), and Internal Revenue       erroneously withheld.
Code (I.R.C.) Section (§) 6103 are followed.
Errors can violate taxpayer rights and result in      TIGTA found that responses to all FOIA/Privacy
improper disclosures of taxpayer information.         Act information requests sampled were timely.
                                                      However, there are no statutory time frames
WHY TIGTA DID THE AUDIT                               within which the IRS must respond to I.R.C.
TIGTA is required to conduct periodic audits to       § 6103 information requests.
determine if the IRS properly denied written          Additionally, sensitive taxpayer information was
requests for taxpayer information. TIGTA is also      inadvertently disclosed in response to 13
required to include the results in one of its         (21.0 percent) of the FOIA/Privacy Act and one
Semiannual Reports to Congress. This is               (1.9 percent) of the I.R.C. § 6103 information
TIGTA’s fifteenth review of denials of FOIA,          requests reviewed.
Privacy Act, and I.R.C. § 6103 information
requests.                                             WHAT TIGTA RECOMMENDED
The overall objectives of this audit were to          TIGTA made no recommendations in this report.
determine whether the IRS improperly withheld         However, once the corrective actions in
information requested by taxpayers in writing,        response to recommendations made in TIGTA’s
based on FOIA exemption (b)(3), in conjunction        Fiscal Year 2013 report are fully implemented,
with I.R.C. § 6103, and/or FOIA exemption (b)(7)      they should address this year’s findings.
or by replying that responsive records were not
available. Specifically, this included determining    The IRS agreed with the report’s results and will
whether the IRS had adequate and effective            continue to ensure that the provisions of the
policies and procedures to ensure that all of         FOIA, the Privacy Act, and the I.R.C. § 6103 are
these requests were processed timely and              followed.
information was not improperly withheld. In
addition, TIGTA determined whether IRS
disclosure officers erroneously disclosed
sensitive taxpayer information when responding
to written FOIA, Privacy Act, or I.R.C. § 6103
information requests.
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           September 17, 2014


 MEMORANDUM FOR DIRECTOR, PRIVACY, GOVERNMENTAL LIAISON AND
                DISCLOSURE


 FROM:                         Michael E. McKenney
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2014 Statutory Review of Compliance
                               With the Freedom of Information Act (Audit # 201430006)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) improperly withheld information requested by taxpayers in writing, based on Freedom of
 Information Act (FOIA)1 exemption (b)(3), in conjunction with Internal Revenue Code (I.R.C.)
 Section (§) 6103, and/or FOIA exemption (b)(7) or by replying that responsive records were not
 available. Specifically, this included determining whether the IRS had adequate and effective
 policies and procedures to ensure that all of these requests were processed timely and
 information was not improperly withheld. In addition, we determined whether IRS disclosure
 officers erroneously disclosed sensitive taxpayer information when responding to written FOIA,
 Privacy Act of 19742 (Privacy Act), or I.R.C. § 6103 information requests.
 The Treasury Inspector General for Tax Administration is required to conduct periodic audits to
 determine if the IRS properly denied written requests for tax account information. We are also
 required to include the results in one of our Semiannual Reports to Congress. This is our
 fifteenth review of denials of FOIA, Privacy Act, and I.R.C. § 6103 requests. This review is
 included in our Fiscal Year 2014 annual audit plan and addresses the major management
 challenge of Taxpayer Protection and Rights.
 Although the Treasury Inspector General for Tax Administration made no recommendations in
 this report, we did provide IRS officials an opportunity to review the draft report. Management’s
 complete response to the draft report is included as Appendix VI.


 1
     5 U.S.C. § 552 (2010).
 2
     5 U.S.C. § 552a (2010).
                             Fiscal Year 2014 Statutory Review of
                         Compliance With the Freedom of Information Act



Copies of this report are also being sent to the IRS managers affected by the report. If you have
any questions, please contact me or Bryce Kisler, Acting Assistant Inspector General for Audit
(Compliance and Enforcement Operations).




                                                                                                    2
                                        Fiscal Year 2014 Statutory Review of
                                    Compliance With the Freedom of Information Act




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Needs to Continue Its Efforts
          to Reduce Its Freedom of Information Act Backlog ..................................... Page 4
          Managerial Controls Need to Ensure That Disclosure Specialists
          Properly Respond to Freedom of Information Act, Privacy Act,
          and Internal Revenue Code Section 6103 Information Requests ................. Page 6
          Freedom of Information Act and Privacy Act Information Requests
          Were Responded to Timely by the Internal Revenue Service ...................... Page 9
          The Office of Disclosure Established Timeliness Requirements
          for Responding to Internal Revenue Code Section 6103
          Information Requests .................................................................................... Page 10
          Disclosure Specialists May Be Inadvertently Disclosing
          Taxpayer Information ................................................................................... Page 11

Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology ....................... Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 17
          Appendix III – Report Distribution List ....................................................... Page 18
          Appendix IV – Outcome Measures............................................................... Page 19
          Appendix V – Previous Audit Reports Related to This Statutory
          Review .......................................................................................................... Page 22
          Appendix VI – Management’s Response to the Draft Report ...................... Page 23
             Fiscal Year 2014 Statutory Review of
         Compliance With the Freedom of Information Act




                 Abbreviations

AFOIA      Automated Freedom of Information Act
DQMS       Disclosure Quality Measurement System
FOIA       Freedom of Information Act
I.R.C.     Internal Revenue Code
IRM        Internal Revenue Manual
IRS        Internal Revenue Service
TIGTA      Treasury Inspector General for Tax Administration
U.S.C.     United States Code
                                Fiscal Year 2014 Statutory Review of
                            Compliance With the Freedom of Information Act




                                          Background

Statutory requirements
The Internal Revenue Code1 (I.R.C.) requires the Treasury Inspector General for Tax
Administration (TIGTA) to:
        conduct periodic audits of a statistically valid sample of the total number of
        determinations made by the Internal Revenue Service to deny written requests to
        disclose information to taxpayers on the basis of section 61032 of this title or section
        552(b)(7) of title 5, United States Code.3

The three primary laws that govern the types of requests for information reviewed in this audit
are:
The Freedom of Information Act (FOIA) requires Federal Government agencies to make
records available to the public upon request, unless specifically exempted. Information that is
“specifically exempted from disclosure by statute” is one of
the exemptions. I.R.C. Section (§) 6103 is an example of
such a statute; it protects the confidentiality of tax returns and  The FOIA requires agencies
return information. Records or information compiled for law           to make records of the
enforcement purposes are also exempt from disclosure under             Federal Government
                                                                      available to the public
the FOIA.                                                              upon request, unless
The Privacy Act of 1974 (Privacy Act)4 states that no                 specifically exempted.
Federal Government agency shall disclose any record that is
contained in a system of records by any means of communication to any person, or to another
agency, except pursuant to a written request by, or with the prior written consent of, the
individual to whom the record pertains. The Privacy Act mandates that each agency have in
place an administrative and physical security system to prevent the unauthorized release of
personal records.
I.R.C. § 6103 protects the confidentiality of taxpayers’ returns and return information.
However, it does allow the taxpayer, or a person designated by the taxpayer, to request and
receive the taxpayer’s specific documents and information.




1
  25 U.S.C. § 7803.
2
  I.R.C. § 6103 (2013).
3
  5 U.S.C. § 552 (2010).
4
  5 U.S.C. § 552a (2010).
                                                                                                   Page 1
                             Fiscal Year 2014 Statutory Review of
                         Compliance With the Freedom of Information Act



Internal Revenue Service (IRS) processing and reporting of FOIA requests
Effective June 2011, the Office of the Deputy Commissioner for Operations Support (through its
Office of Privacy, Governmental Liaison and Disclosure) became responsible for ensuring the
IRS’s timely compliance with the FOIA, the Privacy Act, and I.R.C. § 6103. The Headquarters
Disclosure Office within the Office of Privacy, Governmental Liaison and Disclosure, sets IRS
policy and issues instructions, guidelines, and procedures to the various IRS functions to ensure
compliance with the disclosure statutes.
The Office of Disclosure processes FOIA/Privacy Act and I.R.C. § 6103 information requests
received by the IRS. In the Department of the Treasury 2013 Freedom of Information Act
Annual Report to the Attorney General of the United States, the IRS reported that a total of
11,035 FOIA/Privacy Act information requests were processed. This is consistent with the
11,032 FOIA/Privacy Act requests processed on the Automated Freedom of Information Act
(AFOIA) system during Fiscal Year 2013.
In addition, the report stated that the IRS denied or partially denied information to requestors in
3,294 (30 percent) of the 11,035 FOIA/Privacy Act information requests processed in Fiscal
Year 2013. This is an increase from the 24 percent reported in Fiscal Year 2012. The report
further stated that the IRS advised requestors that there were no records responsive to requests in
791 (7.2 percent) of the 11,035 FOIA/Privacy Act requests. This is consistent with the
6.5 percent reported in the prior fiscal year. The remaining information requests were either
granted in full or closed for miscellaneous reasons, such as the request was improper or had been
previously granted.

Audit limitations and standards
Individual IRS disclosure offices or other IRS offices having custody of taxpayer records also
process written requests for information made under I.R.C. § 6103. While the IRS is not
required to track all information requests made under I.R.C. § 6103, it has elected to do so for
requests received by its Headquarters Disclosure Office. In addition, the Headquarters
Disclosure Office used the AFOIA system to track information requests made under the
FOIA/Privacy Act for Fiscal Year 2013. Requests made under I.R.C. § 6103 that were received
and processed by IRS offices other than the Headquarters Disclosure Office are not controlled on
the AFOIA system or otherwise inventoried. Consequently, the volume of these requests is not
known. As a result, we can statistically sample only the I.R.C. § 6103 information requests
processed directly by the IRS Headquarters Disclosure Office and tracked on the AFOIA system.
We reviewed only those requests processed by the Office of Disclosure that were denied,
partially denied, or had no responsive records during the period of October 1, 2012, through
September 30, 2013.
This review was performed with information obtained from the Headquarters Disclosure Office
within the Office of Privacy, Governmental Liaison and Disclosure, in Washington, D.C., during
the period December 2013 through June 2014. We conducted this performance audit in

                                                                                            Page 2
                            Fiscal Year 2014 Statutory Review of
                        Compliance With the Freedom of Information Act



accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Detailed information on our audit objectives, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                                  Fiscal Year 2014 Statutory Review of
                              Compliance With the Freedom of Information Act




                                       Results of Review

The Internal Revenue Service Needs to Continue Its Efforts to Reduce
Its Freedom of Information Act Backlog
The IRS relies on its disclosure personnel to ensure that information requests received under the
FOIA are handled timely and in accordance with laws and regulations. The IRS supports the
FOIA program with a broad policy statement and the Internal Revenue Manual (IRM)5 that
provides guidance nationwide to disclosure personnel. The policy statement, among other
things, affirms the IRS’s commitment to full compliance with the FOIA and administering it in a
manner consistent with “the fundamental values held by our society, including public
accountability, safeguarding national security, enhancing the effectiveness of law enforcement
agencies and the decision-making processes, protecting sensitive business information, and
protecting personal privacy.”
Besides providing assurances that FOIA information requests are handled timely and in
accordance with laws and regulations, the IRS needs to continue its efforts to reduce inventory
backlog under the Governmentwide “Improving Agency Disclosure of Information” initiative.
The IRS has taken positive steps to effectively manage its FOIA backlog. For example, the
Headquarters and field office managers review weekly over-age reports and monthly inventory
monitoring reports, both of which include FOIA/Privacy Act and I.R.C. § 6103 information
request inventory and backlog information. Disclosure management uses these reports to make
informed decisions to better manage their information request inventory.
Overall, National Disclosure Office statistics show that the IRS reduced its backlog of FOIA
information requests in Fiscal Years 2009 through 2012. However, at the end of Fiscal
Year 2013, there was an 84 percent increase in the number of information requests that were
backlogged (217 requests) compared to the number of backlogged requests at the end of Fiscal
Year 2012 (118 requests). The influx of exempt organization requests starting in June 2013 was
the primary cause for the increased backlog. Figure 1 shows the inventory of backlogged FOIA
information requests for Fiscal Years 2009 through 2013.




5
 Contains the policies, procedures, instructions, guidelines, and delegations of authority which direct the operation
and administration of the IRS. Topics include tax administration, personnel and office management, and others.
                                                                                                              Page 4
                                                           Fiscal Year 2014 Statutory Review of
                                                       Compliance With the Freedom of Information Act



                                         Figure 1: Inventory of Backlogged FOIA Information Requests

                                   300     298



                                   250                    Goal
                                                          Actual
   Number of Backlogged Requests




                                                                                                       217

                                   200
                                                 182
                                                          164
                                                                              146
                                   150
                                                                                     131
                                                                 118                       118
                                                                        106                      106
                                   100



                                   50



                                    0
                                            2009           2010           2011        2012         2013
                                                                       Fiscal Year



Source: Unaudited data provided by the IRS Headquarters Disclosure Office and TIGTA audit reports issued in
Fiscal Years 2010 through 2013.

Going into Fiscal Year 2014, the Federal Government shutdown from October 1 through
October 16, 2013, further increased the backlog to 403 requests. As of June 9, 2014, there were
251 backlogged information requests. Although this represents a 16 percent increase in
backlogged requests since the end of Fiscal Year 2013, it is a decrease of 38 percent since the
reopening of the Federal Government on October 17, 2013. The IRS continues to strive to
reduce its backlog inventory. Reducing the number of backlogged requests is particularly
important because of the time frames that need to be met under the FOIA. However, this
backlog does not appear to be causing any significant delays in processing most information
requests. Based on the results of our sample, which is discussed later in this report, we did not
identify any timeliness issues related to FOIA/Privacy Act information requests.



                                                                                                             Page 5
                                  Fiscal Year 2014 Statutory Review of
                              Compliance With the Freedom of Information Act



Managerial Controls Need to Ensure That Disclosure Specialists
Properly Respond to Freedom of Information Act, Privacy Act, and
Internal Revenue Code Section 6103 Information Requests
The IRS was not consistent in its service to individuals who requested information under the
FOIA/Privacy Act based on the statistically valid sample of information requests reviewed.
Specifically, disclosure specialists improperly withheld information on seven (11.3 percent)6 of
the 62 FOIA/Privacy Act information requests reviewed. When projected to the population of
2,973 FOIA/Privacy Act requests closed during the period October 1, 2012, through
September 30, 2013, the sample results indicate that approximately 336 FOIA/Privacy Act
information requests may have had information erroneously withheld.7
In addition, disclosure specialists failed to adequately search for and provide information on
eight (15.1 percent) of the 53 I.R.C. § 6103 information requests reviewed.8 When projected to
our population of I.R.C. § 6103 information requests closed during the period October 1, 2012,
through September 30, 2013, the sample results indicate that approximately 17 I.R.C. § 6103
requests may have had information erroneously withheld.9 See Appendix IV for an explanation
of the projections. Figure 2 shows the audit results for Fiscal Years 2009 through 2013.




6
  For purposes of reporting, percentages presented in the body of the report are rounded to one decimal place.
Actual error rate percentages in Appendix I and for calculations in Appendix IV are presented to two decimal places.
7
  The point estimate projection is based on a two-sided 95 percent confidence interval, a precision rate of
± 5 percent, and an error rate of 11.3 percent. We are 95 percent confident that the point estimate is between 102
and 569 requests.
8
  The population consists of 844 I.R.C. § 6103 information requests closed during the period October 1, 2012,
through September 30, 2013. We pulled a random sample of 400 cases and screened 219 of them to identify our
sample of 55 cases. Of those 55 cases, two files were incomplete and we were unable to evaluate whether they were
worked properly. That left 53 cases on which we could make a determination. Out of those 53 cases, eight were
exception cases. An error rate of 15.1 percent was calculated based on the 53 cases.
9
  The point estimate projection is based on a two-sided 95 percent confidence interval, precision rate of ± 5 percent,
and an error rate of 15.1 percent. We are 95 percent confident that the point estimate is between eight and 25
requests.
                                                                                                             Page 6
                                                            Fiscal Year 2014 Statutory Review of
                                                        Compliance With the Freedom of Information Act



                                                    Figure 2: Improper FOIA/Privacy Act and
                                                I.R.C. § 6103 Information Request Withholdings


                                        18%                                                      16.4%

                                                                                                                        15.1%
                                        16%
    Percentage  of  Improper  Denials




                                        14%                  FOIA/Privacy Act    I.R.C. § 6103

                                                                                                                11.3%
                                        12%

                                        10%

                                        8%
                                                                                                         5.6%
                                        6%
                                                                                   3.3%
                                        4%
                                              1.3%
                                        2%
                                                      0.4%       0.0%     0.0%            0.0%
                                        0%
                                               2009                2010               2011       2012            2013

                                                                                 Fiscal Year



Source: TIGTA audit reports issued in Fiscal Years 2010 through 2013 and audit tests conducted during this
review. Percentages were rounded to the closest tenth.

The IRS relies on its disclosure personnel to ensure that information requests under the
FOIA/Privacy Act and I.R.C. § 6103 are properly handled in accordance with laws and
regulations. The IRM provides guidance to disclosure personnel nationwide. Throughout the
IRM, personnel are instructed to properly document in case files all aspects of their work during
the receipt, control, research, response, and closing phases of the requests. This documentation
is important because it provides the principal evidence that procedures were followed, as well as
providing the foundation for other control processes such as management reviews.
During Fiscal Year 2009, the Office of Disclosure implemented a Disclosure Quality
Measurement System (DQMS) which was designed to institutionalize a real-time national
process for monitoring the quality of all Office of Disclosure work. According to IRS
management, the DQMS was staffed by temporarily promoting senior disclosure specialists into
the review positions on a rotational basis. During Fiscal Years 2010 through 2012, the
implementation of the AFOIA system took a significant investment of staff time for training and
related administrative support. This resulted in sporadic operation of the DQMS program and an
                                                                                                                                Page 7
                                  Fiscal Year 2014 Statutory Review of
                              Compliance With the Freedom of Information Act



insufficient number of reviews to provide a valid analysis of statistical information. As a result,
Office of Disclosure management made the decision to temporarily discontinue the DQMS as a
quality review for casework.
The DQMS was reestablished at the start of Fiscal Year 2013. It was implemented as originally
intended with senior disclosure specialists temporarily promoted into the review positions on a
rotational basis. Because this was the first year the DQMS was fully operational since Fiscal
Year 2009, the performance statistics for Fiscal Year 2013 will be used to provide a baseline
against which future performance will be compared.10
The DQMS element that corresponds to FOIA/Privacy Act and I.R.C. § 6103 information
requests is Accuracy – Proper Determination Made on Releasibility. This element evaluates
whether a caseworker:
           Conducted appropriate and adequate research for all responsive records.
           Located and considered for release all responsive records.
           Disclosed responsive records to the extent legally possible.
           Decided to withhold records based on the correct interpretation and application of
            exemptions.
           Released all records that were within the scope of the request.
Each type of disclosure request is evaluated individually on the DQMS; therefore, FOIA/Privacy
Act requests, I.R.C. § 6103(c) requests, and I.R.C. § 6103(e) requests have their own DQMS
performance results. The DQMS performance results for this element, as well as an Office of
Disclosure operational review of the DQMS results, are generally consistent with those
determined by TIGTA for the FOIA/Privacy Act and combined I.R.C. §§ 6103(c) and (e) Fiscal
Year 2013 samples. Figure 3 compares the cumulative DQMS and TIGTA performance results
for this element at the end of Fiscal Year 2013.
          Figure 3: Fiscal Year 2013 Comparison of the DQMS and TIGTA Accuracy
             Results for FOIA/Privacy Act and I.R.C. § 6103 Information Requests

         Type of Request                Met       Not Met       Not Applicable            Percentage Met11
     DQMS FOIA/Privacy Act              296         75               93                        79.8%
     DQMS I.R.C. § 6103(c)              104         25               50                        80.6%
     DQMS I.R.C. § 6103(e)              28          11               21                        71.8%
     TIGTA FOIA/Privacy Act              45         17                0                        72.6%
     TIGTA I.R.C. § 6103                 45          8                2                        84.9%
 Source: IRS DQMS Reports and TIGTA audit tests conducted during this review. Percentages were rounded to
 the closest tenth.

10
   A baseline consists of a specified set of documents, software, and other items defined as final (or point-in-time)
products for a project. A baseline establishes a predefined point from which to evaluate project progress.
11
   Formula used by the IRS to calculate the Percentage Met is column Met divided by (columns Met plus Not Met).
                                                                                                              Page 8
                             Fiscal Year 2014 Statutory Review of
                         Compliance With the Freedom of Information Act



Office of Disclosure managers continue to be responsible for the quality of work performed
locally by the personnel they manage. By reviewing ongoing work, managers attempt to identify
and correct potential problems before they could have an adverse effect on taxpayers. During
Fiscal Year 2014, the Office of Disclosure is conducting a study to determine how managers
review cases to identify trends.

Freedom of Information Act and Privacy Act Information Requests
Were Responded to Timely by the Internal Revenue Service
The IRS responded timely to the 62 Fiscal Year 2013 FOIA/Privacy Act information requests in
our sample. The FOIA requires Federal Government agencies to respond within 20 business
days of the receipt of an information request or, if the 20 business days are not sufficient, to
notify the requestor of the reason why the request cannot or will not be filled. If they are unable
to respond to an information request within the time limit, Federal Government agencies are
required to immediately notify the requestor of this fact, of the reasons why they are unable to
respond, and of the requestor’s right to appeal.
The due date for a FOIA information request is revised when the IRS sends a letter to the
requestor exercising its right for an automatic 10-day extension and/or requesting a voluntary
extension in excess of the initial statutory 20-day period. The requestor must agree to the
voluntary extension, and the IRS must notify the requestor of its ability to respond by the end of
the extension period. A FOIA information request is considered untimely when the IRS
responds to the requestor after the due date. For Privacy Act information requests, the IRS must
respond within 30 calendar days of the taxpayer’s request.
Since Fiscal Year 2001, the IRS has made significant improvement in the timeliness of responses
to FOIA/Privacy Act information requests. Our audits, including this review, indicate that the
percentage of untimely responses ranged from zero to 43.5 percent. The results of our last three
audits found that the IRS has remained relatively consistent in providing responses to requestors
within the statutory time periods. Figure 4 shows the percentages of untimely information
requests we have reported since Fiscal Year 2010.




                                                                                             Page 9
                                                         Fiscal Year 2014 Statutory Review of
                                                     Compliance With the Freedom of Information Act



          Figure 4: Comparison of Untimely FOIA/Privacy Act Responses


                                              5%
          Percentage of Untimely Responses 




                                              4%


                                              3%


                                              2%             1.6%       1.7%



                                              1%

                                                     0.0%                          0.0%    0.0%
                                              0%
                                                    2009     2010      2011        2012   2013
                                                                    Fiscal Year

      Source: TIGTA audit reports issued in Fiscal Years 2010 through 2013 and audit tests conducted
      during this review. Percentages were rounded to the closest tenth.

The Office of Disclosure Established Timeliness Requirements for
Responding to Internal Revenue Code Section 6103 Information
Requests
There are no statutory time frames within which the IRS must respond to I.R.C. § 6103
information requests. In response to our Fiscal Year 2013 report, the Director, Office of Privacy,
Governmental Liaison and Disclosure established and published guidance to all caseworkers
addressing the timeliness of responding to I.R.C. § 6103 requests. This guidance will be
incorporated into IRM 11.3.2 and 11.3.3 by November 7, 2014.
In a memorandum dated November 7, 2013, all caseworkers were advised of the following
procedural change:
       Beginning immediately, Disclosure personnel processing requests pursuant to
       I.R.C. § 6103(e) and 6103(c) will ensure that an interim response letter or a
       status report is initiated by the 30th business date from the IRS received date. All
       interim letters or status reports must inform the requester when to expect a final
       response and must provide a contact name and number for additional inquiries.

                                                                                                       Page 10
                             Fiscal Year 2014 Statutory Review of
                         Compliance With the Freedom of Information Act



       If a final response is not provided by the expected final response date of the initial
       interim response letter or status report, an additional status report must be
       provided every 30 business days until a final response is issued.
As a result of this change in policy, we will resume the evaluation of the timeliness of I.R.C.
§ 6103 information requests during our Fiscal Year 2015 review.

Disclosure Specialists May Be Inadvertently Disclosing Taxpayer
Information
During operational and regular managerial reviews, casework is reviewed for any inadvertent
disclosures. The DQMS also has procedures in place to review casework for inadvertent
disclosures and to report those disclosures when discovered. However, further review of our
sample of 62 FOIA/Privacy Act and 53 I.R.C. § 6103 information requests identified 13
(21.0 percent) FOIA/Privacy Act and one (1.9 percent) I.R.C. § 6103 requests in which
disclosure specialists inadvertently disclosed sensitive taxpayer information in their responses.
Those disclosures releasing sensitive taxpayer information are summarized as follows with some
requests having more than one issue.
      Seven occurrences which released Personally Identifiable Information that was outside
       the scope of what the requestor’s Power of Attorney or designated representative was
       authorized to receive.
      Six occurrences which released Personally Identifiable Information of third-party
       taxpayers.
      Two occurrences which treated taxpayer-related information (such as revenue agent
       reports, bank records, etc.) inconsistently by redacting information on some pages, and
       then releasing it on others.
In addition to Personally Identifiable Information, there was one occurrence in which a
taxpayer’s Discriminant Function Score was released to the requestor as well. This numerical
score is given to tax returns based upon a computerized classification process that by IRS policy
is for “official use only.” The IRM specifies that release of this information could impair tax
administration and should not be disclosed.
Office of Disclosure officials stated that these inadvertent disclosures could have resulted from
several contributing factors, such as:
      An oversight by the caseworker when completing the review of responsive records.
      An oversight by management in the review of the case files.
The timely identification and reporting of all inadvertent unauthorized disclosures of sensitive
information is critical to quickly initiate any needed investigation or recovery of information. A

                                                                                            Page 11
                             Fiscal Year 2014 Statutory Review of
                         Compliance With the Freedom of Information Act



prompt report decreases the possibility that the information may be compromised and used to
perpetuate identity theft or other forms of harm to taxpayers or the Federal Government.
Disclosure officials addressed the disclosures with the disclosure specialists and their managers
who processed and reviewed the requests we identified. Disclosure officials responded that the
appropriate actions were taken to report all of the inadvertent disclosures once we notified them
of our concerns.
As result of our previous review, the Director, Office of Privacy, Governmental Liaison and
Disclosure developed and implemented a mandatory Disclosure Technical Update training
session for all disclosure specialists and managers to review the various types of inadvertent
disclosures and stress the need for a careful review of documents prior to release to avoid
unauthorized disclosures. The Disclosure Technical Update includes a review of the procedures
for reporting any such disclosures. The training was recorded and disclosure managers are
required to certify on an annual basis that their employees reviewed it. This training session is
also a permanent part of the disclosure orientation training for new disclosure employees. As of
the conclusion of our review, all 173 disclosure specialists and managers have completed the
training. We expect that the implementation of this certification process should result in fewer
inadvertent disclosures in future years.




                                                                                          Page 12
                                  Fiscal Year 2014 Statutory Review of
                              Compliance With the Freedom of Information Act



                                                                                        Appendix I

           Detailed Objectives, Scope, and Methodology

The overall objectives of this audit were to determine whether the IRS improperly withheld
information requested by taxpayers in writing, based on FOIA1 exemption (b)(3), in conjunction
with I.R.C. § 6103, and/or FOIA exemption (b)(7) or by replying that responsive records were
not available. Specifically, this included determining whether the IRS had adequate and
effective policies and procedures to ensure that all of these requests were processed timely and
information was not improperly withheld. In addition, we determined whether IRS disclosure
officers erroneously disclosed sensitive taxpayer information when responding to written FOIA,
Privacy Act, 2 or I.R.C. § 6103 information requests. To accomplish these objectives, we:
I.         Determined the applicable policies, procedures, and controls that were in place to ensure
           compliance with the FOIA when denying information, such as:
           A. Policies, operating procedures, systems, documents/files, risks, laws, and regulations
              related to the receipt, disposition, and resolution or denials of requests for information
              under the FOIA.
           B. Specific management controls and systems that were in place to ensure the timely and
              proper receipt, disposition, and resolution or denials of requests for information under
              the FOIA.
II.        Determined whether the IRS properly adhered to statutory FOIA and Privacy Act
           requirements, as well as procedural requirements.
           A. Obtained an extract from the AFOIA system for the period October 1, 2012, through
              September 30, 2013, and identified 2,973 FOIA/Privacy Act information requests
              closed as denied or partially denied based on FOIA exemption (b)(3), in conjunction
              with I.R.C. § 6103, or on FOIA exemption (b)(7), or where the IRS replied that
              responsive records were not available or did not exist. We validated the data extract
              by performing specialized queries. We determined that the data were sufficiently
              reliable for the purposes of this report.
           B. Designed a statistically valid sample based on a confidence level of 90 percent and an
              expected error rate of 6.12 percent for FOIA/Privacy Act information requests, with
              an estimated precision of ± 5 percent. Based on these parameters, a statistically valid
              sample size was 62 information requests. This sampling methodology was chosen so
              that we could project the number of requests with improper withholdings to the

1
    5 U.S.C. § 552 (2010).
2
    5 U.S.C. § 552a (2010).
                                                                                               Page 13
                                  Fiscal Year 2014 Statutory Review of
                              Compliance With the Freedom of Information Act



             universe of information requests that were partially or fully denied based on FOIA
             exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption (b)(7),
             or for which requestors were told records were not available.
         C. Reviewed the 62 sampled FOIA/Privacy Act information requests and determined
            whether the decision to withhold information was appropriate, the record search was
            adequate, and the determination was made in a timely manner.
         D. Projected the number of requests for which information was withheld from the
            requestor to be in the range of 102 to 569 (3.43 percent to 19.15 percent) for
            FOIA/Privacy Act information requests that were partially or fully denied based on
            FOIA exemption (b)(3), in conjunction with I.R.C. § 6103, and/or FOIA exemption
            (b)(7), or for which requestors were told records were not available. The projection
            was made using the Normal Approximation method for attribute sampling, with a 95
            percent confidence level and an actual error rate of 11.29 percent. The accuracy of
            our projection was reviewed by TIGTA’s contract statistician.3
         E. Discussed all exceptions with Office of Disclosure officials.
         F. Reviewed the Department of the Treasury 2013 Freedom of Information Act Annual
            Report to the Attorney General of the United States showing various statistics for
            FOIA/Privacy Act information requests, including appeals and closures. This
            information was not independently verified because the accuracy of these statistics
            did not affect the accomplishment of our audit objective.
III.     Determined whether the IRS Headquarters Disclosure Office is adhering to legal
         requirements when denying written information requests received under I.R.C. § 6103.
         A. Obtained an extract from the AFOIA system for the period October 1, 2012, through
            September 30, 2013, and identified 844 I.R.C. §§ 6103(c) and (e) information
            requests that were denied, partially denied, or had no responsive records.
         B. Designed a statistically valid sample based on a confidence level of 90 percent, an
            expected error rate of 5.38 percent, and an estimated precision of ± 5 percent. Based
            on these parameters, the size of the statistically valid sample was 55 information
            requests. This sampling methodology was chosen because it would allow us to
            project the number of requests with improper withholdings to the universe of closed
            I.R.C. §§ 6103(c) and (e) information requests that were partially or fully denied or
            for which the IRS replied that responsive records were not available or did not exist.
         C. Selected a statistically valid sample of 3984 of the 844 I.R.C. §§ 6103(c) and (e)
            closed information requests. We selected a larger sample size to account for the

3
  Based on advice from TIGTA’s contract statistician, we used a 90 percent confidence level to select our sample
and a 95 percent confidence level to formulate our projections.
4
  The sample of 398 requests consisted of the original 400 cases selected less the two cases that were incomplete.
                                                                                                            Page 14
                                 Fiscal Year 2014 Statutory Review of
                             Compliance With the Freedom of Information Act



             possibility that some requests would not meet our criteria. We screened 219 of the
             398 requests received to identify the necessary 55 information requests for our sample
             that included instances in which information was partially or fully denied or in which
             the IRS replied that responsive records were not available or did not exist.
        D. Reviewed the 55 information requests identified and determined whether the decision
           to withhold the information based on I.R.C. § 6103 was appropriate. We found that
           53 of the 55 cases were complete and could be reviewed and evaluated to determine if
           information was withheld. The remaining two cases had incomplete case files.
           Therefore, our sample size for this step was 53.
        E. Discussed all exceptions with Office of Disclosure officials.
        F. Projected the number of requests where information was withheld from the requestor
           to be in the range of eight to 25 (1.01 percent to 3.01 percent) for information
           requests that were partially or fully denied information or told that records were not
           available. The projection was made using the Normal Approximation method for
           attribute sampling, with a 95 percent confidence level and an actual error rate of
           15.09 percent. To project the number of taxpayers affected, we projected the number
           of errors to the original 398 requests sampled from the population of 844 I.R.C. §
           6103 information requests. The accuracy of our projection was reviewed by
           TIGTA’s contract statistician.5
IV.     Determined whether IRS disclosure officers erroneously disclosed sensitive taxpayer
        information when responding to written FOIA, Privacy Act, or I.R.C. § 6103 information
        requests.
        A. Reviewed the FOIA and I.R.C § 6103 information requests selected for our samples
           in Sub-Objectives II.B. and III.B. for any information outside the scope of the request
           that may have been erroneously disclosed.
        B. Discussed any exception cases with the Privacy, Governmental Liaison and
           Disclosure staff and obtained agreement.
V.      Followed up on corrective actions from TIGTA’s Fiscal Year 2013 FOIA review.
        A. Obtained and evaluated the mandatory Disclosure Technical Update training session
           related to inadvertent disclosures that was given to all disclosure specialists.
        B. Verified that managers conducted the initial certification process to ensure that their
           employees reviewed the Disclosure Technical Update.



5
 Based on advice from TIGTA’s contract statistician, we used a 90 percent confidence level to select our sample
and a 95 percent confidence level to formulate our projections.
                                                                                                         Page 15
                             Fiscal Year 2014 Statutory Review of
                         Compliance With the Freedom of Information Act



       C. Obtained and evaluated the interim guidance memorandum developed by disclosure
          management to provide specific time frames for responding to I.R.C. § 6103
          information requests.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objectives: the IRS policies, operating procedures,
systems, laws, and regulations related to the receipt, disposition, and resolution or denials of
requests for information under the FOIA to evaluate whether the IRS improperly withheld tax
account information requested in writing. We evaluated these controls by reviewing source
materials, interviewing management, and reviewing statistically valid samples of closed
FOIA/Privacy Act and I.R.C. § 6103 information requests.




                                                                                          Page 16
                            Fiscal Year 2014 Statutory Review of
                        Compliance With the Freedom of Information Act



                                                                             Appendix II

                 Major Contributors to This Report

Nancy Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Alan Lund, Acting Director
Tina Parmer, Audit Manager
Gail Schuljan, Lead Auditor
David Hartman, Senior Auditor




                                                                                     Page 17
                           Fiscal Year 2014 Statutory Review of
                       Compliance With the Freedom of Information Act



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Deputy Commissioner, Operations Support OS




                                                                        Page 18
                                  Fiscal Year 2014 Statutory Review of
                              Compliance With the Freedom of Information Act



                                                                                  Appendix IV

                                  Outcome Measures

This appendix presents detailed information on the measurable impact that the results of our
audit will have on tax administration. These benefits will be incorporated into our Semiannual
Report to Congress.

Type and Value of Outcome Measure:
     Taxpayer Rights and Entitlements – Potential; 336 responses to FOIA1/Privacy Act2
      information requests for which information may have been improperly withheld or the IRS
      failed to adequately search for and provide during the 12-month period October 1, 2012,
      through September 30, 2013 (see page 6).

Methodology Used to Measure the Reported Benefit:
We reviewed a statistically valid sample of 62 requests from a population 2,973 FOIA/Privacy
Act information requests closed nationally during the period October 1, 2012, through
September 30, 2013, as either a:
      1) Full or partial denial with either FOIA exemption (b)(3), in conjunction with
         I.R.C. § 6103, and/or FOIA exemption (b)(7) cited as one of the reasons for withholding
         information.
      2) Request for which the IRS replied that responsive records were not available or did not
         exist.
We identified seven requests where disclosure specialists improperly withheld the requested
information. Based on our sample error rate of 11.29 percent (7/62) and a confidence level of
95 percent, we estimated that the number of requestors erroneously denied information to be 336
[2,973 x 11.29 percent], with a range of 102 to 569. We arrived at the estimate by multiplying
the number of requests closed as either condition 1) or 2) listed in the prior paragraph by the
percentage of erroneously denied responses identified in our sample. The projection was made
using the Normal Approximation method for attribute sampling, with a confidence level of
95 percent and an actual error rate of 11.29 percent. As a result, the actual precision factors were
3.43 percent and 19.15 percent.




1
    5 U.S.C. § 552 (2010).
2
    5 U.S.C. § 552a (2010).
                                                                                            Page 19
                                   Fiscal Year 2014 Statutory Review of
                               Compliance With the Freedom of Information Act



Type and Value of Outcome Measure:
   Taxpayer Rights and Entitlements – Potential; 17 responses to I.R.C. § 6103 information
    requests for which the IRS failed to adequately search for and provide information during the
    12-month period October 1, 2012, through September 30, 2013 (see page 6).

Methodology Used to Measure the Reported Benefit:
We screened 219 of a statistically valid sample of 398 requests to identify 55 requests that
satisfied our criteria and were not misclassified, from a population 844 I.R.C. § 6103 information
requests closed nationally during the period October 1, 2012, through September 30, 2013, as
either a full or partial denial, or a request for which the IRS replied that responsive records were
not available or did not exist.
   We found that 53 of the 55 cases were complete and could be reviewed and evaluated. The
    remaining two cases had incomplete case files and could not be reviewed and evaluated.
    Therefore, our sample size for this step was 53.
   We identified eight requests out of the 53 where disclosure specialists failed to adequately
    search for and provide the requested information.
We used our sample error rate of 15.09 percent (8/53) and a confidence level of 95 percent to
calculate our projections. The error rate for the original statistically valid sample of 398 requests
is 2.01 percent (8/398). We then applied that error rate to the entire population and estimated the
number of requestors erroneously denied information to be 17 [844 x 2.01 percent], with a range
of eight to 25. We arrived at the estimate by multiplying the number of requests closed as listed
in the prior paragraph by the percentage of improperly denied responses identified in our sample.
The projection was made using the Normal Approximation method for attribute sampling, with a
confidence level of 95 percent and an actual error rate of 15.09 percent. As a result, the upper
and lower precision factors were 1.01 percent and 3.01 percent.

Type and Value of Outcome Measure:
   Taxpayer Privacy and Security – Potential; 14 responses had sensitive taxpayer information
    inadvertently disclosed in response to either a FOIA/Privacy Act or I.R.C. § 6103
    information request (see page 11).

Methodology Used to Measure the Reported Benefit:
While conducting our review, we observed3 that disclosure specialists inadvertently disclosed
sensitive taxpayer information in response to 13 (20.97 percent) of the FOIA/Privacy Act and

3
  The scope of this audit focused on information being withheld, not on the information that was inadvertently
released to the taxpayer. Therefore, due to the nature of the sample selected, the results of this finding cannot be
projected to the population.
                                                                                                              Page 20
                             Fiscal Year 2014 Statutory Review of
                         Compliance With the Freedom of Information Act



one (1.89 percent) of the I.R.C. § 6103 information requests in our samples. These disclosures
included Personally Identifiable Information, such as Social Security Numbers, names, tax
account transcripts, and tax return information.




                                                                                        Page 21
                           Fiscal Year 2014 Statutory Review of
                       Compliance With the Freedom of Information Act



                                                                            Appendix V

            Previous Audit Reports Related to This
                      Statutory Review

TIGTA, Ref. No. 2000-10-116, Taxpayers Should Be Provided Timely Service When Appealing
Denied Requests Under the Freedom of Information Act (Aug. 2000).
TIGTA, Ref. No. 2001-10-112, The Internal Revenue Service Should Continue Taking Action to
Improve Compliance With the Freedom of Information Act and Related Procedures (Jul. 2001).
TIGTA, Ref. No. 2002-10-093, Actions Should Continue to Be Taken to Improve Compliance
With the Freedom of Information Act and Related Procedures (May 2002).
TIGTA, Ref. No. 2003-10-164, Opportunity for Improvement Exists for Compliance With the
Freedom of Information Act and Related Procedures (Aug. 2003).
TIGTA, Ref. No. 2004-40-064, Improvements Are Needed to Ensure Compliance With the
Freedom of Information Act (Mar. 2004).
TIGTA, Ref. No. 2005-10-089, Some Improvements Have Been Made to Better Comply With
Freedom of Information Act Requirements (May 2005).
TIGTA, Ref. No. 2006-10-129, Compliance With Freedom of Information Act Requirements Has
Increased (Aug. 2006).
TIGTA, Ref. No. 2007-10-133, The Office of Disclosure Can Improve Compliance With the
Freedom of Information Act Requirements (Aug. 2007).
TIGTA, Ref. No. 2008-30-164, The Office of Disclosure Continued to Improve Compliance With
the Freedom of Information Act Requirements (Aug. 2008).
TIGTA, Ref. No. 2009-30-115, The Office of Disclosure Continues to Improve Upon Its
Responses to Taxpayers’ Requests Under the Freedom of Information Act (Sept. 2009).
TIGTA, Ref. No. 2010-30-090, The Office of Disclosure Continues to Improve Compliance With
the Freedom of Information Act Requirements (Aug. 2010).
TIGTA, Ref. No. 2011-30-093, The Office of Disclosure Continues to Improve Compliance With
the Freedom of Information Act Requirements (Sept. 2011).
TIGTA, Ref. No. 2012-30-098, Fiscal Year 2012 Statutory Review of Compliance With the
Freedom of Information Act (Aug. 2012).
TIGTA, Ref. No. 2013-30-109, Fiscal Year 2013 Statutory Review of Compliance With the
Freedom of Information Act (Sept. 2013).
                                                                                      Page 22
            Fiscal Year 2014 Statutory Review of
        Compliance With the Freedom of Information Act



                                                 Appendix VI

Management’s Response to the Draft Report




                                                         Page 23
    Fiscal Year 2014 Statutory Review of
Compliance With the Freedom of Information Act




                                                 Page 24
